CERTIFICATE OF SERVICE
NO. TBD
Foster Wheeler et al.
Petitioner(s)
v.
Supreme Court of California (Richards et al.)
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury: That I am over the age of 18
years and am not a party to this action. I am an employee of the Supreme Court Press, the preparer of
the document, with mailing address at 1089 Commonwealth Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the Foster Wheeler et
al. Petition for Writ of Certiorari, by shipping three (3) true and correct copies of the same by Fedex
2-day prepaid for delivery to the following addresses:
Tani Gorre Cantil-Sakauye
Chief Justice
Supreme Court of California
350 McAllister Street
San Francisco, CA 94102
(415) 865-7000
Supreme Court of California

Stephen M. Fishback
Keller Fishback & Jackson LLP
28720 Canwood Street, Suite 200
Agoura Hills, CA 91301
(818) 342-7442
sfishback@kfjlegal.com
Counsel for Edward Richards and Linda Richards

Nicole Brown Yuen
Foley & Mansfield, PLLP
2185 North California Blvd., Suite 575
Walnut Creek, CA 94596
(510) 590-9595
nyuen@foleymansfield.com
Counsel for Columbia Mechanical Contractors, Inc.

B. Gardiner Mckleroy
Wilson, Elser, Moskowitz, Edelman & Dicker LLP
525 Market Street, 17th Floor
San Francisco, CA 94105
(415) 434-1370
gardiner.mckleroy@wilsonelser.com
Counsel for Golden Gate Drywall, Inc.

Carrie Lin
Manning Gross + Massenburg LLP
201 Spear Street, 18th Floor
San Francisco, CA 94105
(415) 512-4381
clin@mgmlaw.com
Counsel for John Crane Inc.

Jocelyn M. Soriano
Foley & Mansfield, PLLP
2185 N. California Blvd., Suite 575
Walnut Creek, CA 94596
(510) 590-9595
jsoriano@foleymansfield.com
Counsel for Mueller Co. LLC

{ See additional addresses on the following page }

Lucas DeDeus
October 4, 2021
SCP Tracking: Hugo-240 Stockton Street, 8th Floor-Cover White

Additional Service Addresses
NO. TBD
Foster Wheeler et al.
Petitioners,
v.
Supreme Court of California (Richards et al.)
Respondent.
__________
{ Continued from Previous Page }
Hillary H. Huth
WFBM, LLP Attorneys at Law
One Sansome Street, Suite 1800
San Francisco, CA 94104-4461
(415) 391-5258
hhuth@w6bm.com
P.E. O'Hair & Co.

Joseph B. Adams
Edlin, Gallagher Huie + Blum LLP
500 Washington St., Suite 700
San Francisco, CA 94111
(415) 397-1339
jadams@behblaw.com
Parker Hannifin Corporation

Jocelyn M. Soriano
Foley & Mansfield, PLLP
2185 N. California Blvd., Suite 575
Walnut Creek, CA 94596
(510) 590-9595
jsoriano@foleymansfield.com
Counsel for Crosby Valve, Inc.

Daniel J. Kelly
Tucker Ellis LLP
201 Mission Street, Suite 2310
San Francisco, CA 94105
(415) 617-2409
daniel.kelly@tuckerellis.com
Counsel for Service Engineering Co.

SCP Tracking: Hugo-240 Stockton Street, 8th Floor-Cover White

